TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                   First-Time Homebuyer Credit Repayment
                    Notices Were Incorrect, and the Method
                   Used to Identify Dispositions Is Unreliable



                                      September 15, 2011

                              Reference Number: 2011-41-097




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                     HIGHLIGHTS


FIRST-TIME HOMEBUYER CREDIT                         of incorrectly recorded home purchase dates.
REPAYMENT NOTICES WERE                              TIGTA also identified that the IRS’s Recapture
INCORRECT, AND THE METHOD USED                      File sent to the third-party vendor for research to
TO IDENTIFY DISPOSITIONS IS                         identify individuals who may have disposed
                                                    of their principal residence did not include
UNRELIABLE
                                                    31,062 individuals who received the
                                                    Homebuyer Credit through February 2010.
Highlights                                          In addition, our review found that the research
                                                    methodology performed by the third-party
Final Report issued on September 15,                vendor is incorrectly identifying current
2011                                                addresses. As a result, some individuals
                                                    incorrectly received a Notice CP03c, which is
Highlights of Reference Number: 2011-41-097         sent to individuals when the IRS has information
to the Internal Revenue Service Commissioner        that there was a change to the individual’s
for the Wage and Investment Division.               principal residence. For the 86,609 individuals
                                                    who received a Notice CP03c, 53,558
IMPACT ON TAXPAYERS                                 (62 percent) received this notice because the
                                                    third-party vendor incorrectly indicated the
Each of the laws which provide First-Time
                                                    individual’s address did not match the address in
Homebuyer Credits (Homebuyer Credit)
                                                    the IRS’s Recapture File.
contains different Homebuyer Credit amounts,
qualification requirements, and repayment           Finally, our review of the third-party vendor’s
requirements. Our review identified                 research results for a statistically valid sample of
inaccuracies relating to the issuance of            97 taxpayer accounts determined that for
Homebuyer Credit repayment notices. In              40 (41 percent) of the taxpayer accounts, the
addition, the method used to identify individuals   information provided to the IRS had incomplete
who may have disposed of their principal            or inaccurate information.
residence was not reliable.
                                                    WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT
                                                    TIGTA recommended that the Commissioner,
TIGTA is required to monitor the Internal           Wage and Investment Division, ensure
Revenue Service’s (IRS) implementation of           Homebuyer Credit repayment notices are
American Recovery and Reinvestment Act of           accurately issued, correct the purchase dates for
2009 provisions. The IRS reported a total of        the 2,535 tax accounts TIGTA identified as still
$29.7 billion in Homebuyer Credit claims were       having an incorrect purchase date recorded on
made by more than 4 million individuals as of       the IRS’s computer system, and discontinue
May 7, 2011. Our overall objective was to           using third-party vendor data to identify
evaluate the effectiveness of IRS processes to      individuals who may have disposed of their
ensure the accurate and timely repayment of the     principal residence unless the reliability can be
Homebuyer Credit.                                   significantly improved.
WHAT TIGTA FOUND                                    The IRS agreed with two recommendations and
                                                    plans to refer the 2,535 tax accounts to the
The IRS is continuing to take actions to develop    Accounts Management function for analysis and
and implement Homebuyer Credit repayment            corrections, complete its evaluation of the use of
processes and procedures. However, our              third-party vendor data, and reevaluate the use
review identified notice programming errors         of its own internal data. For the remaining
which resulted in 13,327 individuals (including     recommendation, the IRS plans to replace the
deceased individuals) who received or would         Notices CP03a and CP03b with a web-based
have received incorrect notices, 18,220             tool that it plans to make available to taxpayers
individuals not receiving notices, and 29,880       for the 2012 Filing Season.
individuals receiving incorrect notices because
                                                  DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 15, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – First-Time Homebuyer Credit Repayment Notices
                                 Were Incorrect, and the Method Used to Identify Dispositions Is
                                 Unreliable (Audit # 201040107)

 This report presents the results of our review to evaluate the effectiveness of the Internal
 Revenue Service processes to ensure the accurate and timely repayment of the First-Time
 Homebuyer Credit, including individuals who do not self-identify a disposition of their primary
 residence. This review was included in our Fiscal Year 2010 Annual Audit Plan and addresses
 the major management challenge of Implementing Tax Law Changes.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of Internal Revenue Service programs. This audit was
 conducted using Recovery Act funds.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                        First-Time Homebuyer Credit Repayment Notices
                        Were Incorrect, and the Method Used to Identify
                                    Dispositions Is Unreliable




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Programming Errors and Inaccurate Purchase Dates Resulted in
          Incorrect Notices ........................................................................................... Page 6
                    Recommendations 1 and 2: .............................................. Page 9

          The Homebuyer Credit Recapture File Was Incomplete .............................. Page 10
          The Method Used to Identify Individuals Who Disposed
          of Their Principal Residence Is Unreliable ................................................... Page 10
                    Recommendation 3:........................................................ Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Outcome Measures............................................................... Page 21
          Appendix V – Management’s Response to the Draft Report ....................... Page 25
        First-Time Homebuyer Credit Repayment Notices
        Were Incorrect, and the Method Used to Identify
                    Dispositions Is Unreliable




                      Abbreviations

IDRS            Integrated Data Retrieval System
IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration
TY              Tax Year
                        First-Time Homebuyer Credit Repayment Notices
                        Were Incorrect, and the Method Used to Identify
                                    Dispositions Is Unreliable




                                             Background

The Housing and Economic Recovery Act of 2008 (Housing Act)1 introduced the new
First-Time Homebuyer Credit (Homebuyer Credit) to help stimulate the housing industry by
encouraging individuals to purchase their first homes.
Subsequent legislation, the American Recovery and       The Internal Revenue Service
Reinvestment Act of 2009 (Recovery Act),2 the              (IRS) reported a total of
Worker, Homeownership, and Business Assistance            $29.7 billion in Homebuyer
Act of 2009 (Assistance Act),3 and the Homebuyer         Credit claims were made by
                                                       more than 4 million individuals
Assistance and Improvement Act of 2010 (Homebuyer             as of May 7, 2011.
Act),4 revised, extended, and expanded the
Homebuyer Credit in an attempt to remedy the
struggling real estate market.
The Homebuyer Credit reduced taxes or increased tax refunds depending on the tax owed. The
Homebuyer Credit was a refundable credit which resulted in a tax refund even if no income tax
was withheld or paid when the credit exceeded the tax liability. Figure 1 provides a breakdown
of Homebuyer Credit claims by Legislation.
               Figure 1: Comparison of Homebuyer Credit Claims by Legislation
                                   Through May 7, 2011
                          Legislation                 Homebuyer Credit       Amount of
                                                          Claims          Homebuyer Credit
                                                                              Claimed
       Housing Act                                            1,564,170          $10.8 billion
       Recovery Act                                           2,041,969          $13.8 billion
       Assistance Act                                          219,213            $1.6 billion
       Homebuyer Act                                           263,774            $3.5 billion
       Total                                                  4,089,126         $29.7 billion

    Source: The IRS Submission Processing function.




1
  Pub. L. No. 110-289, 122 Stat. 2654 (2008).
2
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
3
  Pub. L. No. 111-92, 123 Stat. 2984 (2009).
4
  Pub. L. No. 111-198, 124 Stat. 1356 (2010).
                                                                                          Page 1
                    First-Time Homebuyer Credit Repayment Notices
                    Were Incorrect, and the Method Used to Identify
                                Dispositions Is Unreliable



The laws which provided Homebuyer Credits contain different repayment and/or
waiver of repayment requirements
Each of the laws with Homebuyer Credit provisions contains different Credit amounts,
qualification requirements, and repayment requirements. For example, individuals who received
the Homebuyer Credit for a home purchased in 2008 are required to make mandatory repayments
of the Homebuyer Credit. These individuals are required to pay back the total amount received
for the Homebuyer Credit over 15 years. Annual repayment amounts are added to any other tax
the individual owes on their Federal tax return beginning in Tax Year (TY) 2010. This could
result in an additional tax owed or a reduced refund. There are some exceptions.
Individuals who received the Homebuyer Credit generally must repay the entire Homebuyer
Credit amount they received if, during the 3-year period beginning on the purchase date and after
the year for which the individual received the Homebuyer Credit, they dispose of their home or it
ceases to be their principal residence. Figure 2 provides a comparison of the repayment
requirements and some of the repayment exceptions in the four Homebuyer Credit provisions.
          Figure 2: Comparison of Homebuyer Credit Repayment Provisions

                                                                                                      Homebuyer
                       Housing Act                Recovery Act              Assistance Act               Act
 Homebuyer         Repayment is over          Repayment of the           Repayment of the           No change from
 Credit            15 years beginning in      Homebuyer Credit in        Homebuyer Credit in        Assistance Act.
                   TY 2010.                   the next tax year if the   the next tax year if the
 Repayment                                    residence claimed for      residence claimed for
                   Repayment of the
                   outstanding                the Credit is no longer    the Credit is no longer
                   Homebuyer Credit in        the principal residence    the principal residence
                   the next tax year if the   within 3 years of          within 3 years of
                   residence claimed for      purchase date              purchase date (provided
                   the Credit ceases to be    (provided there is a       there is a gain on the
                   the principal residence    gain on the sale of the    sale of the home).
                   before the end of the      home).
                   15-year recapture
                   period (provided there
                   is a gain on the sale of
                   the home).
 Waiver of         Death of the               Death of the          Death of the individual.        No change from
 Homebuyer         individual.                individual.           Individuals (and                Assistance Act.
 Credit                                                             spouses, if married) on
                                                                    qualified extended
 Repayment                                                          duty.
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of legislation.

Individuals report Homebuyer Credit repayments and dispositions (may result in repayment of
the Homebuyer Credit the following tax year) on Parts III and IV on the First-Time Homebuyer

                                                                                                            Page 2
                   First-Time Homebuyer Credit Repayment Notices
                   Were Incorrect, and the Method Used to Identify
                               Dispositions Is Unreliable



Credit and Repayment of the Credit (Form 5405). Figure 3 provides an example of Form 5405
Parts III and IV.
                               Figure 3: Form 5405, Parts III and IV




Source: Page 2 of Form 5405.

                                                                                    Page 3
                  First-Time Homebuyer Credit Repayment Notices
                  Were Incorrect, and the Method Used to Identify
                              Dispositions Is Unreliable



Recovery Act activities require a high level of scrutiny, and taxpayer dollars spent on economic
recovery must be subject to unprecedented levels of transparency and accountability. Federal
agencies are required to ensure Recovery Act funds are used for authorized purposes and
appropriate measures are taken to prevent fraud, waste, and abuse. As such, the TIGTA is
required to monitor the IRS’s implementation of Recovery Act provisions, and this audit was
conducted to meet those requirements.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, during the period August 2010 through June 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 4
                 First-Time Homebuyer Credit Repayment Notices
                 Were Incorrect, and the Method Used to Identify
                             Dispositions Is Unreliable




                                Results of Review

The IRS is continuing to take actions to develop and implement Homebuyer Credit repayment
processes and procedures. These actions include:
   •   Developing a comprehensive First-Time Homebuyer Credit Recapture Strategy that
       outlines the IRS’s processes for handling repayments.
   •   Revising Form 5405 by adding Sections III and IV (see Figure 3) for use by individuals
       with mandatory repayments and dispositions of principal residences within 3 years that
       require repayment.
   •   Creating a Homebuyer Credit Entity Section on the tax account of each individual who
       received the Homebuyer Credit. The Entity Section contains Homebuyer Credit data for
       the primary and secondary taxpayer (for married taxpayers filing jointly) including the
       amount of the Homebuyer Credit received and the year in which the home was
       purchased. The Homebuyer Credit Entity Section will also show the cumulative amount
       of the Homebuyer Credit that has been repaid. The IRS plans to update the Entity
       Section when tax returns with an attached Form 5405 with entries in Part III or Part IV
       are processed.
   •   Creating a Recapture File that included more than 2.4 million individuals who received
       the Homebuyer Credit through February 2010. The Recapture File contains information
       relating to individuals who received the Homebuyer Credit. It includes the individual’s
       name, Social Security Number, address, and the purchase year for the home used to claim
       the Homebuyer Credit. The Recapture File was provided to a third-party vendor to
       research third-party records and to provide information back to the IRS that identifies
       individuals who potentially disposed of their principal residence but did not report the
       disposition and repay the Homebuyer Credit.
   •   Mailing notices to individuals who received the Homebuyer Credit. These notices
       provide key information as to when individuals have to repay the Homebuyer Credit and
       include:
       •   Notice CP03a, Repaying your First-Time Homebuyer Credit - sent to individuals
           who purchased a home in 2008 and are required to repay the credit over 15 years
           beginning in TY 2010. This notice will be sent to these individuals annually until the
           Homebuyer Credit is fully repaid. The notice lists the amount of the Homebuyer
           Credit the individual originally received and the amount still outstanding that has to
           be repaid as an additional tax. For the 2011 Filing Season, the IRS reported it issued
           1,520,025 Notices CP03a.

                                                                                          Page 5
                  First-Time Homebuyer Credit Repayment Notices
                  Were Incorrect, and the Method Used to Identify
                              Dispositions Is Unreliable



       •   Notice CP03b, Courtesy message about your First-Time Homebuyer Credit - sent to
           individuals for 3 years after the year they received the Homebuyer Credit for a 2009
           or 2010 purchase. This notice informs individuals what to do if they sell their
           principal residence or if it is no longer their principal residence. For the 2011 Filing
           Season, the IRS reported it issued 3,746,397 Notices CP03b.
       •   Notice CP03c, Important information regarding your First-Time Homebuyers
           Credit - sent to individuals when the IRS has information that there was a change to
           the individual’s principal residence. It reminds individuals to file a Form 5405 to
           report the sale or disposition of their principal residence and repay the credit. For the
           2011 Filing Season, the IRS reported it issued 86,609 Notices CP03c.
The IRS accurately issued more than 5.2 million Notices CP03a and CP03b. However,
our review identified that the IRS issued incorrect notices or did not send notices to
61,427 (1 percent) individuals. For example, because of programming errors, 13,327 individuals
(including deceased individuals) received incorrect notices and 18,220 individuals did not
receive their notice. In addition, 29,880 individuals received incorrect notices because the IRS’s
computer system showed incorrect home purchase dates.
In addition, our review also identified that the IRS’s Recapture File sent to the third-party vendor
was not complete; 31,062 individuals who received the Homebuyer Credit (through
February 2010) were not included in this file. Finally, we identified that the methodology used
to identify individuals who may have disposed of their principal residence was not reliable.

Programming Errors and Inaccurate Purchase Dates Resulted in
Incorrect Notices
Our review identified that because of programming errors and inaccuracies related to the year of
purchase on the Homebuyer Credit Entity Section of tax accounts, individuals did not receive
notices or received incorrect notices.

Some individuals did not receive Homebuyer Credit notices
Our review identified 18,220 individuals who received the Homebuyer Credit for a
2008 purchase but were not included in the IRS’s Notice CP03a issuance file. This resulted from
a programming error in the IRS’s notice issuance process. Individuals who did not receive this
notice may not be aware of their repayment requirements, including the amount of Homebuyer
Credit which needs to be repaid for TY 2010.
On October 29, 2010, we alerted IRS management that not all appropriate individuals were going
to receive the Notice CP03a. We recommended that the IRS correct its notice programming to
ensure these 18,220 individuals receive a Notice CP03a. In its response, the IRS noted that it
had corrected its notice programming and would issue a Notice CP03a to the individuals

                                                                                             Page 6
                     First-Time Homebuyer Credit Repayment Notices
                     Were Incorrect, and the Method Used to Identify
                                 Dispositions Is Unreliable



identified by the TIGTA. As recently as April 14, 2011, we were assured by IRS executives that
these notices had been issued. However, our review of an updated Notice Issuance File, dated
December 25, 2010, identified that the IRS did not issue a Notice CP03a to 17,638 (97 percent)
of these 18,220 individuals.

Some individuals received or would have received Homebuyer Credit notices with
incorrect repayment amounts
Our review identified 12,495 Notices CP03a that incorrectly showed the individual’s required
repayment amount as $0 when in fact these individuals had a repayment obligation. On
October 22, 2010, we alerted IRS management that notices had incorrect repayment amounts.
The IRS responded that 8,609 notices with incorrect repayment amounts had already been
mailed; however, corrected notices would be reissued to these individuals. The cost of issuing
the 8,609 incorrect notices was approximately $29,701. In addition, the IRS responded it would
halt the issuance of notices the week beginning October 24, 2010, to correct the programming
error to ensure accurate repayment amounts were detailed on notices subsequently issued by the
IRS.
As recently as April 14, 2011, we were assured by IRS executives that these notices had been
issued with correct repayment amounts. However, our review of an updated Notice Issuance
File, dated December 25, 2010, identified that the IRS did not issue correct notices to 3,4725
(28 percent) of these 12,495 individuals.

Incorrect purchase dates resulted in some individuals receiving incorrect
Homebuyer Credit notices
Our review identified 29,880 individuals who received an incorrect Notice CP03a or Notice
CP03b that cost the IRS approximately $103,086 to issue.
    •    27,728 individuals incorrectly received a Notice CP03a indicating they had a repayment
         obligation despite having purchased their home in 2009 (only 2008 purchases have a
         repayment requirement). These individuals should have received a Notice CP03b.
    •    2,152 individuals incorrectly received a Notice CP03b indicating that they did not have a
         repayment obligation for TY 2010 unless they sold their principal residence or it was no
         longer their principal residence. These individuals should have received a Notice CP03a
         because they had a 2008 home purchase and have a mandatory repayment obligation.




5
  The 3,472 individuals who did not receive correct notices could be included in the 8,609 individuals who already
received an incorrect notice and in the 3,886 individuals who had not been mailed a notice at the time we alerted the
IRS.
                                                                                                             Page 7
                    First-Time Homebuyer Credit Repayment Notices
                    Were Incorrect, and the Method Used to Identify
                                Dispositions Is Unreliable



In a prior review,6 we alerted IRS management that, in some instances, the IRS did not
accurately distinguish between individuals with a 2008 home purchase date and those with a
2009 home purchase date. The prior review identified 68,924 individuals who received the
Homebuyer Credit that had incorrect purchase dates shown in the Homebuyer Credit Entity
Section of their accounts. We recommended that the Commissioner, Wage and Investment
Division, correct the purchase dates for these 68,924 accounts. The IRS agreed with this
recommendation. The IRS indicated that it would use third-party property records to verify
home purchase or disposition information and would refer discrepancies for appropriate
resolution.
However, as we have previously described, the IRS has still not corrected all of these
individuals’ purchase dates. As a result, these individuals received and will continue to receive
incorrect notices. On November 22, 2010, we again notified IRS management that individuals’
accounts had incorrect purchase dates. IRS management responded they would systemically
correct purchase dates in the Homebuyer Credit Entity Section of these accounts to reflect the
correct year of the home purchase. The IRS further noted that it would filter to remove from this
population any individual tax accounts with post-processing compliance actions present on the
account and systemically correct the purchase dates by January 29, 2011.
Our review of the 29,880 tax accounts, as of February 26, 2011, still identified 2,535 tax
accounts with an incorrect purchase date. In addition, the IRS did not issue corrected notices to
the 29,880 individuals who received an incorrect notice.

Some deceased individuals would have incorrectly received a Homebuyer Credit
notice
Our review identified 832 deceased individuals who would have incorrectly received a
Homebuyer Credit notice. We determined that 832 of the 1,326 deceased individuals identified
in a prior review7 were still included in the IRS’s Notice CP03a and Notice CP03b issuance files.
The law waives any repayment of the Homebuyer Credit for deceased individuals. These
individuals should not receive Homebuyer Credit notices.
IRS guidelines require that when a tax return is filed on behalf of an individual who is recently
deceased, the tax return must be appropriately notated so the individual’s tax account can be
properly coded. However, we found that not all deceased individual tax accounts were properly
coded to indicate the individual who received the Homebuyer Credit was now deceased.




6
  A Comprehensive Strategy Is Being Developed to Identify Individuals With First-Time Homebuyer Credit
Repayment Requirements (Reference Number 2010-41-086, dated August 16, 2010).
7
  A Comprehensive Strategy Is Being Developed to Identify Individuals With First-Time Homebuyer Credit
Repayment Requirements (Reference Number 2010-41-086, dated August 16, 2010).
                                                                                                         Page 8
                  First-Time Homebuyer Credit Repayment Notices
                  Were Incorrect, and the Method Used to Identify
                              Dispositions Is Unreliable



On November 4, 2010, we alerted IRS management of the potential that Homebuyer Credit
notices would be incorrectly sent to deceased individuals. The IRS responded that actions were
taken to remove deceased individuals from the Homebuyer Credit Entity Section of the accounts.
For Filing Season 2011, when final tax returns for deceased individuals are filed, a code will be
input on the tax return that will result in an adjustment to the individual’s tax account which will
waive any repayment of the Homebuyer Credit and ensure no notices are issued. For future
processing, to remove deceased individuals from the Homebuyer Credit Entity Section, the IRS
will use the Social Security Administration decedent data to systemically identify, suspend
notices, and adjust these tax accounts. This future process will be performed bi-annually
beginning July 2011.
As recently as April 14, 2011, we were assured by IRS executives that these notices had not been
issued. However, our review of an updated Notice Issuance File, dated December 25, 2010,
identified that the IRS failed to suppress the issuance of notices to 738 (89 percent) of the
832 deceased individuals. The cost of issuing the 738 notices was approximately $2,546.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure notice issuance programming accurately identifies individuals
who should receive a Notice CP03a or CP03b and ensure information contained in these notices
is accurate.
       Management’s Response: In response to our recommendation, the IRS stated it is
       discontinuing the use of Notices CP03a and CP03b and replacing them with a web-based
       tool that will be available to taxpayers for the 2012 Filing Season. The IRS is publicizing
       the availability of the tool to tax software and return preparer communities and will
       conduct additional outreach to inform taxpayers for the filing season.
Recommendation 2: Correct the purchase dates for the 2,535 tax accounts we identified as
still having an incorrect purchase date recorded on their Homebuyer Credit Entity Section on the
IRS’s computer system.
       Management’s Response: IRS management agreed with this recommendation;
       however, their preliminary reviews indicate that a high percentage of these accounts
       appear to be correct. Purchase dates have been updated from the original return values by
       subsequent examination or adjustment activity on the tax return. These accounts have
       been referred to the Accounts Management function, which is analyzing the accounts and
       making necessary corrections.




                                                                                             Page 9
                      First-Time Homebuyer Credit Repayment Notices
                      Were Incorrect, and the Method Used to Identify
                                  Dispositions Is Unreliable



The Homebuyer Credit Recapture File Was Incomplete
We identified 31,062 individuals who received the Homebuyer Credit as of February 2010, that
were not included in the IRS’s Recapture File. The Recapture File was sent to a third-party
vendor for research to identify potential dispositions of an individual’s principal residence. On
January 19, 2011, we alerted IRS management that the Recapture File was incomplete. IRS
management responded that they were aware that the Recapture File was incomplete and had
previously notified the TIGTA there were secondary tax accounts8 of individuals who filed
jointly with their spouse that were not included. The IRS noted that these individuals were not
included because of programming issues and would be included in the next Recapture File.
The IRS had informed us there were a few thousand individuals who would not be included in
the Recapture File because of the reasons previously stated. We acknowledge that some of the
individuals not included in the file were the result of secondary tax accounts. This does not,
however, account for all of the 31,062 individuals we identified that were not included in the
Recapture File. We raised this concern in discussions with the IRS and were provided a
subsequent response dated April 21, 2011. In this response, the IRS indicated that the
methodology it used to populate the Recapture File differed from the TIGTA’s methodology,
which resulted in the file being incomplete. The difference is that the IRS’s methodology limited
inclusion of individuals in the Recapture File to only those individuals who both had received the
Homebuyer Credit and had their TY 2009 U.S. Individual Income Tax Return (Form 1040)
processed by February 2010. We believe the 31,062 individuals who we identified should have
been included in the Recapture File. The IRS has informed us that the individuals we identified
will be included in the next IRS Recapture File scheduled for June 2011.

The Method Used to Identify Individuals Who Disposed of Their
Principal Residence Is Unreliable
Our review found that the method used to identify individuals who disposed of their
principal residence is not reliable. The research performed by the third-party vendor
incorrectly identified current addresses. Because of this, some individuals incorrectly received a
Notice CP03c, which is sent to individuals when the IRS has information that there was a change
to the individual’s principal residence. For the 86,609 individuals who received a Notice CP03c,
53,558 (62 percent) received this notice because the third-party vendor incorrectly indicated the
individual’s address did not match the individual’s address in the IRS’s Recapture File.



8
  A taxpayer account can include one individual (e.g., an individual files a tax return using the “single” filing status)
or two individuals (e.g., two people file a tax return using the “married filing joint” filing status). The IRS refers to
the first person on a joint return as the “primary taxpayer” and the second person on a joint return as the “secondary
taxpayer.”
                                                                                                                Page 10
                  First-Time Homebuyer Credit Repayment Notices
                  Were Incorrect, and the Method Used to Identify
                              Dispositions Is Unreliable



Based on our identification of the inaccurate and incomplete results provided by the third-party
vendor, we recommend that the IRS discontinue using a vendor to identify individuals who may
have disposed of their principal residence. In fact, tax records the IRS maintains seem to be
more reliable in identifying individuals who disposed of their principal residence.

Third-party address research is resulting in the incorrect identification of
individuals who disposed of their principal residence
Our statistically valid sample of 97 individuals included in the IRS’s Recapture File included
8 individuals who received a Notice CP03c based on third-party research indicating these
individuals may have disposed of their principal residence. The third-party vendor indicated
these eight individuals’ current address did not match the individual’s address that was provided
in the IRS’s Recapture File.
However, our review of IRS information and information provided by the third-party vendor
identified that these individuals incorrectly received a Notice CP03c. The information showed
that the individuals’ principal residence was still the address provided by the IRS in its Recapture
File. The IRS requested that the third-party vendor research third-party data including public
property records (e.g., tax assessor, deed) and provide back to the IRS information indicating
whether the individual has a different address than the address provided by the IRS. For each of
these eight individuals, the third-party vendor provided back that the individual had a different
current address. However, our research of IRS records and current tax assessor and deed records
showed that these individuals lived at the principal residence address that was included in the
IRS’s Recapture File. Our discussions with the third-party vendor found that the method it used
to identify a different address for these eight individuals incorrectly identified the current address
based on what they indicated was the presence of an active landline telephone number. This is
despite third-party property records showing that the individual resided at the address included in
the IRS’s Recapture File.
Figure 4 shows that the principal residence address provided by the third-party vendor was not
included in any IRS tax records or tax assessor and deed records.




                                                                                             Page 11
                     First-Time Homebuyer Credit Repayment Notices
                     Were Incorrect, and the Method Used to Identify
                                 Dispositions Is Unreliable



           Figure 4: Comparison of Current Address Provided by Third-Party
               Vendor to Address on Tax Returns and Property Records

                         Does the Individual’s Current Address From the Third-Party
                                  Vendor Match the Individual’s Address on:
                                                             Current Tax     Current
                        2008 Tax    2009 Tax     2010 Tax      Assessor       Deed
        Individual       Return       Return      Return        Record       Record
              1           **1**            **1**           **1**             **1**             **1**
              2           **1**            **1**           **1**             **1**             **1**
              3           **1**            **1**           **1**             **1**             **1**
              4           **1**            **1**           **1**             **1**             **1**
              5           **1**            **1**           **1**             **1**             **1**
              6           **1**            **1**           **1**             **1**             **1**
              7           **1**            **1**           **1**             **1**             **1**
              8           **1**            **1**           **1**             **1**             **1**
       Sources: Current address data provided by third-party vendor, the IRS’s Individual Income Tax data,
       and the third-party vendor’s system of property records (e.g., tax assessor and deed records).

Information provided to the IRS from the third-party vendor was incomplete
and/or inaccurate
Our review of the third-party vendor’s research results for a statistically valid sample of
97 taxpayer accounts determined that for 40 (41 percent) of the taxpayer accounts, the
information provided to the IRS had incomplete or inaccurate information.
   •     19 tax accounts – Third-party vendor did not provide the most current or relevant tax
         assessor record or deed record for the individual.
   •     7 tax accounts – Third-party vendor provided information not relating to the individual
         for whom the research was to be conducted. For example, the individual’s name
         provided by the IRS (e.g., Jane A. Doe) in the Recapture File did not match the name on
         the associated tax assessor and/or deed record included in the third-party vendor’s results
         (e.g., Jane A. Smith).




                                                                                                        Page 12
                       First-Time Homebuyer Credit Repayment Notices
                       Were Incorrect, and the Method Used to Identify
                                   Dispositions Is Unreliable



       •   8 tax accounts9 – Third-party vendor provided an incorrect current address for the
           individual and indicated the individual did not live at the address provided in the IRS’s
           Recapture File.
       •   6 tax accounts – Third-party vendor did not provide the current or relevant property
           record and the individual’s name provided by the third party did not match the
           individual’s name in the IRS’s Recapture File. These six accounts included multiple
           inaccuracies.
We identified the 40 taxpayer accounts with incomplete or inaccurate information by researching
the taxpayers’ address information, tax assessor records, and deed records maintained on the
third-party vendor’s database of public records, and comparing our research results to the
information provided by the third-party vendor to the IRS. The incomplete or inaccurate
information could result in the IRS erroneously mailing a Notice CP03c to individuals who did
not dispose of their principal residence, or failing to mail a Notice CP03c to individuals who
disposed of their principal residence.

Information maintained in IRS records provides more reliable identification of
individuals potentially disposing of their principal residence
Based on our identification of the inaccurate and incomplete results provided by the third-party
vendor, we recommend that the IRS discontinue using a third-party vendor to identify
individuals who may have disposed of their principal residence. In our opinion, tax records and
information that the IRS maintains is more reliable in identifying individuals who disposed of
their principal residence.
As of April 27, 2011, the
third-party vendor had not billed
the IRS for its research results,
but the IRS informed us the
amount due the third party was
approximately $214,000. Further
indication that the research
provided by the third-party
vendor was not reliable is that
only 3,306 (6 percent) of the
57,842 individuals who received a
Notice CP03c and who filed a
TY 2010 tax return as of
April 23, 2011, reported a disposition.


9
    The IRS issued Notice CP03c to eight individuals on six of the eight taxpayer accounts.
                                                                                               Page 13
                  First-Time Homebuyer Credit Repayment Notices
                  Were Incorrect, and the Method Used to Identify
                              Dispositions Is Unreliable



Even though IRS management knew that third-party information was inaccurate, a
decision was made to mail Notices CP03c
The IRS informed us that it received the third-party vendor results in November 2010. The
IRS’s review of the results identified that the information provided contained “minor errors that
impacted a relatively small number of records.”
When the third-party vendor could not deliver improved results by mid-December 2010, the IRS
decided to use the November 2010 results to identify individuals who should receive a
Notice CP03c. The IRS believed it was critical to mail the Notice CP03c to individuals prior to
the 2011 Filing Season to alert the individuals that they might need to report the disposition. See
Figure 5 for a timeline on the providing of results to the IRS from the third-party vendor.
             Figure 5: Timeline for Receiving Third-Party Research Data

          Date                                             Action

   June – July 2010      Test sample of 5,000 records provided by the IRS to the third-party
                         vendor. The purpose of providing the test sample was to identify and
                         correct programming errors in the third-party vendor’s research program.
      July 2010          The IRS’s Recapture File was provided to the third-party vendor to
                         conduct research.
     August 2010         The IRS received the preliminary research results from the third-party
                         vendor. The IRS’s quality review of the information identified errors.
     August –            Results were provided to the IRS from the third-party vendor for
   November 2010         evaluation. Based on the IRS’s evaluation, programming changes were
                         performed.
    November –           The IRS received a file from the third-party vendor containing what the
   December 2010         IRS referred to as “minor errors.” The file contained minor errors that
                         affected a relatively small number of records and were considered when
                         the IRS used the third-party vendor’s research results to identify
                         individuals with a potential disposition. The IRS notified the vendor of
                         the errors and requested a revised file with corrected information.
   December 2010         The IRS believed that it was crucial to mail Notice CP03c prior to the
                         2011 Filing Season. When the third-party vendor could not deliver
                         revised results by mid-December 2010, the IRS decided to use the
                         November 2010 third-party research results for purposes of mailing the
                         Notices CP03c.
     January 2011        The IRS mailed Notice CP03c to 86,609 individuals.

                                                                                           Page 14
                    First-Time Homebuyer Credit Repayment Notices
                    Were Incorrect, and the Method Used to Identify
                                Dispositions Is Unreliable



           Date                                                    Action

       January –            The IRS requested the third-party vendor to take the following actions to
     February 2011          correct the information:
                                • Revise programming to provide the IRS with the two most
                                    current sales or foreclosure deed for the property of interest.
                                • Revise programming to provide the IRS with the most current tax
                                    assessor property record.
  February 22, 2011         The third-party vendor was still conducting a quality review of its
                            programming. The vendor estimated sending the IRS final results for
                            individuals included in the IRS’s July 2010 Recapture File by
                            March 4, 2011.
Source: The IRS Electronic Tax Administration and Refundable Credits function.

Our review of email correspondence between the IRS and the third-party vendor showed the
problems with the third-party vendor research provided to the IRS and the IRS’s concerns
regarding these data. Emails from IRS employees responsible for reviewing the third-party data
raised concerns regarding the completeness and accuracy of the information provided to the IRS.
These concerns noted that records seemed to be inaccurate, data were missing in the files
delivered, and information provided did not match information on the third-party vendor web site
database that can be researched by the IRS. These concerns were being raised as late as
November 2010, yet IRS management went forward with the decision to mail notices to
individuals based on the known inaccurate and incomplete data. We believe the IRS should not
have issued these notices using the information provided by the third-party vendor.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should discontinue
using third-party vendor data to identify individuals who may have disposed of their principal
residence unless the reliability can be significantly improved. The IRS should develop a
methodology that uses the IRS’s tax return data and information to identify individuals who have
an indication of a disposition of their principal residence.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS will complete its evaluation of the use of the third-party vendor data and reevaluate
        the use of its own internal data which was considered when its First-Time Homebuyer
        Credit Recapture Strategy was first developed.




                                                                                            Page 15
                     First-Time Homebuyer Credit Repayment Notices
                     Were Incorrect, and the Method Used to Identify
                                 Dispositions Is Unreliable



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the effectiveness of IRS processes to ensure the accurate
and timely repayment of the First-Time Homebuyer Credit (Homebuyer Credit) including
individuals who do not self-identify a disposition of their primary residence. To accomplish this
objective, we:
I.      Assessed the completeness and accuracy of the IRS’s Recapture File.
        A. Interviewed responsible IRS officials to determine how the IRS’s Recapture File was
           created and the criteria used to identify the individual tax accounts to be included in
           the Recapture File.
        B. Created a duplicate (TIGTA) Recapture File based on the criteria used by the IRS and
           matched it to the IRS’s Recapture File to see if the data in both files were the same.
        C. Validated 40 records in the IRS’s Recapture File against taxpayer data on the IRS’s
           Integrated Data Retrieval System (IDRS).1 We validated 36 records in TIGTA’s
           Recapture File against taxpayer data on the IDRS.
II.     Assessed the IRS’s development and accuracy of Notice CP03a, Repaying your
        First-Time Homebuyer Credit, and Notice CP03b, Courtesy message about your
        First-Time Homebuyer Credit.
        A. Reviewed the process to ensure individuals who claimed the Homebuyer Credit for
           Calendar Year 2008 home purchases received the proper notification (Notice CP03a).
             1. Interviewed responsible IRS officials to determine how the individuals requiring
                notification are being identified.
             2. Obtained the IRS’s file of Notices CP03a and CP03b through September 25,
                2010, and validated five records in the notice file against the IDRS.
             3. Obtained an extract of the Individual Master File2 Homebuyer Credit Entity
                Section data through October 2, 2010, from TIGTA’s Information Services staff.
                We validated five records in the extract against the IDRS.



1
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
2
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                             Page 16
                    First-Time Homebuyer Credit Repayment Notices
                    Were Incorrect, and the Method Used to Identify
                                Dispositions Is Unreliable



            4. Compared the records on the Homebuyer Credit Entity Section to the records on
               the file of Notices CP03a and CP03b.
                a. Identified individuals not included in the notice file for issuance of the Notice
                   CP03a and determined the effect on individuals and the IRS.
                b. Assessed the accuracy of the amounts reported on the Notices CP03a.
                c. Identified individuals not included in the notice file for issuance of the Notice
                   CP03b and determined the effect on individuals and the IRS.
        B. Followed up on management’s corrective actions in response to the findings
           contained in the most recent TIGTA report on the Homebuyer Credit.3
            1. Determined if the IRS sent Notice CP03b to 49,480 individuals who purchased a
               home in 2009, but the IRS incorrectly recorded the purchase date as 2008 on the
               individuals’ Homebuyer Credit Entity Section.
            2. Determined if the IRS sent Notice CP03a to the 6,541 individuals who purchased
               a home in 2008, but the IRS incorrectly recorded the purchase date as 2009 on the
               individuals’ Homebuyer Credit Entity Section.
            3. Determined if the IRS excluded the 1,326 deceased individuals from its file of
               CP03a and CP03b notices.
        C. Obtained the IRS’s revised file of Notices CP03a and CP03b through
           December 25, 2010, and analyzed the file to determine if it contained corrected
           notices for the issues identified in our review.
III.    Evaluated the effectiveness of the IRS’s use of a third-party vendor to identify
        individuals who do not self-report a disposition of their primary residence.
        A. Interviewed the third-party vendor for background information about its database of
           public records and how the taxpayer’s current address was identified.
        B. Obtained the third-party vendor’s research results for the IRS’s Recapture File.
        C. Researched IRS data and the third-party vendor’s database of public records for a
           statistical sample of 97 records from the third-party research results. Our sample size
           was determined using the following sampling criteria:
               1,762,353 population (e.g., number of records in the IRS’s Recapture File).
               90 percent confidence level.
               10 percent actual error rate (based on the review of 10 records).
               ±5 percent precision.

3
 A Comprehensive Strategy Is Being Developed to Identify Individuals With First-Time Homebuyer Credit
Repayment Requirements (Reference Number 2010-41-086, dated August 16, 2010).
                                                                                                        Page 17
                 First-Time Homebuyer Credit Repayment Notices
                 Were Incorrect, and the Method Used to Identify
                             Dispositions Is Unreliable



       D. Matched the 97 sample records against the IRS’s Notice CP03c file to determine how
          many taxpayers in the sample were issued Notice CP03c.
       E. Matched the third-party vendor’s research results for the IRS’s Recapture File against
          the IRS’s Notice CP03c file to identify individuals receiving a Notice CP03c solely
          because the third-party vendor’s results showed the individuals do not reside at the
          addresses included in the IRS’s Recapture File.
       F. Matched the individuals who received a Notice CP03c against TY 2010 returns
          processed through April 23, 2011, to identify individuals who did not report a
          disposition on First-Time Homebuyer Credit and Repayment of the Credit
          (Form 5405).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS Wage and Investment Division’s
policies, procedures, and practices for developing and implementing the First-Time Homebuyer
Credit Recapture Strategy. We evaluated these controls by interviewing IRS management and
third-party vendor personnel, reviewing documentation, analyzing IRS Notices CP03a, CP03b,
and CP03c, and analyzing IRS data and public records for taxpayers who received the
Homebuyer Credit.




                                                                                        Page 18
                First-Time Homebuyer Credit Repayment Notices
                Were Incorrect, and the Method Used to Identify
                            Dispositions Is Unreliable



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Tina Parmer, Audit Manager
Sharon Buford, Lead Auditor
Karen Fulte, Senior Auditor
Van Warmke, Senior Auditor
Denise Gladson, Auditor
Lance Welling, Auditor
Martha Stewart, Senior Information Technology Specialist




                                                                                    Page 19
                First-Time Homebuyer Credit Repayment Notices
                Were Incorrect, and the Method Used to Identify
                            Dispositions Is Unreliable



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing OS:CTO:AD:SP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Senior Operations Advisor, Wage and Investment Division SE:W:S
   Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI




                                                                                     Page 20
                  First-Time Homebuyer Credit Repayment Notices
                  Were Incorrect, and the Method Used to Identify
                              Dispositions Is Unreliable



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 18,220 taxpayers received the First-Time Homebuyer Credit
    (Homebuyer Credit) for a 2008 home purchase but were not included in the IRS’s Notice
    CP03a issuance file (see page 6).

Methodology Used to Measure the Reported Benefit:
Our review identified 18,220 taxpayers who received the Homebuyer Credit for a 2008 purchase
but were not included in the IRS’s Notice CP03a issuance file. As a result, these taxpayers
would not receive the Notice CP03a showing the amount of the credit the taxpayer would have to
repay as additional tax for TY 2010. The 18,220 is the sum of 17,246 + 292 + 682 taxpayers.
    •   The 17,246 are secondary taxpayers on TY 2008 joint returns for which the Homebuyer
        Credit was claimed. However, these taxpayers filed as either single or head of household
        for TY 2009 with no cross-reference to the primary taxpayer they filed with for TY 2008.
        Notice CP03a was not issued to the 17,246 secondary taxpayers because their
        Homebuyer Credit Entity Section was included under the primary taxpayers Homebuyer
        Credit Entity Sections.
    •   The 292 are secondary taxpayer records of primary taxpayers who filed as either single or
        head of household on TY 2008 returns and claimed the Homebuyer Credit. These same
        taxpayers filed as single or head of household for TY 2009, but were also shown as a
        secondary taxpayer on TY 2009 returns for primary taxpayers filing as married filing
        separate. Notice CP03a was not issued to the 292 secondary taxpayers because their
        Homebuyer Credit Entity Section was included under the primary taxpayers Homebuyer
        Credit Entity Sections.
    •   The 682 are primary taxpayers who claimed the Homebuyer Credit on TY 2008 returns,
        but Notice CP03a was not issued to them.
To identify the 18,220 taxpayers, we obtained an extract of the Homebuyer Credit
Entity Section for taxpayers claiming the credit through October 2, 2010, from TIGTA’s
Information Services staff. We used computer analysis to identify 1,065,465 primary taxpayers

                                                                                          Page 21
                    First-Time Homebuyer Credit Repayment Notices
                    Were Incorrect, and the Method Used to Identify
                                Dispositions Is Unreliable



and 478,468 secondary taxpayers with a 2008 home purchase year. We also obtained an IRS file
of Notices CP03a and CP03b as of September 25, 2010, and used computer analysis to identify
1,506,259 Notices CP03a.
We matched the taxpayers with a 2008 home purchase year against the Notices CP03a and
identified 10,552 primary and 21,038 secondary taxpayers who did not have a Notice CP03a.
We eliminated 9,466 primary and 2,131 secondary taxpayers who had a deceased indicator, a
credit amount of $0, or a recapture amount that equaled the credit amount because a Notice
CP03a would not be issued to taxpayers with these conditions. There were 1,086 primary and
18,907 secondary taxpayers remaining after these eliminations.
We used TIGTA’s Data Center Warehouse to extract a file of taxpayers who received the
Homebuyer Credit 1 for TY 2008 or TY 2009. We matched the Data Center Warehouse extract
against the 18,907 secondary taxpayers and eliminated 1,661 secondary taxpayers who received
the credit, or had an adjustment that changed a 2009 purchase to a 2008 purchase, after the IRS’s
notice file was created (September 25, 2010). The result was 17,246 taxpayers who filed as a
secondary taxpayer on TY 2008 returns and claimed the Homebuyer Credit but no Notices
CP03a were issued to them. We also determined that 292 of the taxpayers filed as a primary
taxpayer on TY 2008 returns and claimed the Homebuyer Credit but no CP03a notices were
issued to them.
We matched the Data Center Warehouse file against the 1,086 primary taxpayers and eliminated
404 primary taxpayers who received the credit, or had an adjustment that changed a 2009
purchase to a 2008 purchase, after the IRS’s notice file was created (September 25, 2010). The
result was 682 taxpayers who filed as primary taxpayers on TY 2008 returns and claimed the
Homebuyer Credit but no Notices CP03a were issued to them.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 12,495 taxpayers received or would have received Notices
    CP03a that incorrectly showed the taxpayer’s required repayment amount as $0 when in fact
    these taxpayers had a repayment obligation (see page 6).

Methodology Used to Measure the Reported Benefit:
Our review identified 12,495 Notices CP03a that incorrectly showed the taxpayer’s required
repayment as $0 when in fact these taxpayers had a repayment obligation. This occurred on
records where the primary taxpayer on the Homebuyer Credit Entity Section did not have a
credit, but the secondary taxpayer on the Homebuyer Credit Entity Section did.


1
 We used the Individual Master File and Other Modules Transactions Table on the TIGTA’s Data Center
Warehouse to extract records with Transaction Code 766 and Credit Reference Number 258, which are used to
allow the Homebuyer Credit on a taxpayer’s account.
                                                                                                     Page 22
                    First-Time Homebuyer Credit Repayment Notices
                    Were Incorrect, and the Method Used to Identify
                                Dispositions Is Unreliable



To identify the 12,495 taxpayers, we obtained an extract of the Homebuyer Credit Entity Section
for taxpayers claiming the credit through October 2, 2010, from TIGTA’s Information Services
staff. We used computer analysis to identify 478,468 secondary taxpayers with a 2008 home
purchase year. We eliminated 1,744 secondary taxpayers who had a $0 credit amount. For the
remaining 476,724 secondary taxpayers, we computed the annual repayment amount.2
We obtained an IRS file of Notices CP03a and CP03b as of September 25, 2010, and used
computer analysis to identify 1,506,259 Notices CP03a. We matched the 476,724 secondary
taxpayers against the Notices CP03a and identified 457,545 secondary taxpayers.
For the 457,545 secondary taxpayers, we compared the annual repayment amount that we
computed using the Homebuyer Credit Entity Section data to the amount of credit to be repaid on
the Notice CP03a. We identified 12,495 secondary taxpayers with an incorrect repayment
amount of $0 on Notice CP03a. In its response to our email alert, the IRS informed us that
incorrect notices had been mailed to 8,609 taxpayers.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 738 taxpayers who were identified as deceased; however, the
    IRS failed to suppress the issuance of notices to these taxpayers (see page 6).

Methodology Used to Measure the Reported Benefit:
Our review of an updated Notice Issuance File, dated December 25, 2010, identified that the IRS
failed to suppress the issuance of notices to 738 of 1,326 deceased taxpayers identified in a prior
review.3

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $135,333 cost of issuing 39,227 incorrect notices
    (see page 6).

Methodology Used to Measure the Reported Benefit:
The 39,227 is the sum of:
    •   8,609 Notices CP03a with incorrect repayment amounts the IRS had already mailed.
    •   27,728 Notices CP03a for individuals with an incorrect 2008 home purchase year.


2
  The annual repayment amount is the credit amount shown on the individual’s Homebuyer Credit Entity Section
divided by 15.
3
  A Comprehensive Strategy Is Being Developed to Identify Individuals With First-Time Homebuyer Credit
Repayment Requirements (Reference Number 2010-41-086, dated August 16, 2010).
                                                                                                      Page 23
                 First-Time Homebuyer Credit Repayment Notices
                 Were Incorrect, and the Method Used to Identify
                             Dispositions Is Unreliable



   •   2,152 Notices CP03b for individuals with an incorrect 2009 purchase year.
   •   738 Notices for deceased individuals.
We used the IRS’s Fiscal Year 2010 cost estimate reference for the Notice Review function to
calculate the cost of issuing the 39,227 incorrect notices. The Notice Review total cost estimate
for 1,000 notices is $3,451. The unit cost is $3.45 ($3,451 divided by 1,000). We multiplied the
$3.45 unit cost by the 39,227 incorrect notices for a total cost estimate of $135,333.




                                                                                         Page 24
    First-Time Homebuyer Credit Repayment Notices
    Were Incorrect, and the Method Used to Identify
                Dispositions Is Unreliable



                                                      Appendix V

Management’s Response to the Draft Report




                                                           Page 25
First-Time Homebuyer Credit Repayment Notices
Were Incorrect, and the Method Used to Identify
            Dispositions Is Unreliable




                                                  Page 26
First-Time Homebuyer Credit Repayment Notices
Were Incorrect, and the Method Used to Identify
            Dispositions Is Unreliable




                                                  Page 27
First-Time Homebuyer Credit Repayment Notices
Were Incorrect, and the Method Used to Identify
            Dispositions Is Unreliable




                                                  Page 28
